HHS/OIG Audit,"West Virginia Child Support Enforcement Medical Support, (A-03-01-00218)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"West Virginia Child Support Enforcement Medical Support," (A-03-01-00218)
May 7, 2001
Complete
Text of Report is available in PDF format (821 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report presents the results of an Office of Inspector General (OIG), Office of Audit Services (OAS),
limited scope review to identify and evaluate the processes and procedures to ensure that the non-custodial parents' (NCP)
obligations are determined and met as primary payers before public funds are used to cover their children's medical needs
as required by Section 466(a)(19) of Title IV-D of the Social Security Act.  We found that West Virginia was in general
compliance with Section 466 and has implemented positive actions to ensure that NCP's are covering their children's medical
insurance needs.  We made three procedural recommendations that we believe will make West Virginia's program even
more effective.